     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




October 29, 2010

Report Number: A-07-10-00335

Ms. Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
P. O. Box 8190
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements for the
Employees’ Pension Plan at Wisconsin Physicians Service Insurance Corporation for the Period
of January 1, 1989, to January 1, 2008. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00335
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Jared Adair

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL



    REVIEW OF THE PENSION
SEGMENTATION REQUIREMENTS FOR
THE EMPLOYEES’ PENSION PLAN AT
 WISCONSIN PHYSICIANS SERVICE
INSURANCE CORPORATION FOR THE
   PERIOD OF JANUARY 1, 1989,
      TO JANUARY 1, 2008




                        Daniel R. Levinson
                         Inspector General

                          October 2010
                          A-07-10-00335
                           Office of Inspector General
                                          http://oig.hhs.gov




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). In addition, WPS also administered Medicare operations under a Medicare
administrative contractors (MAC) contract with CMS.

During the audit period, WPS maintained four separate defined benefit pension plans. This
report will address the pension assets for the Employees’ Pension Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Prior Pension Audit Report

We performed a prior pension audit at WPS (A-05-92-00048, issued October 1992), which
brought the actuarial value of Medicare segment pension assets to December 31, 1989. The prior
audit recommended that WPS increase its actuarial value of Medicare segment pension assets by
$159,452 and, as a result, recognize $2,184,560 as the Medicare segment pension assets as of
January 1, 1989.

Although our prior audit recommended an asset adjustment as of January 1, 1989, that audit
reported assets as of December 31, 1989. Therefore, we used December 31, 1989, as the starting
date of this current audit period. However, because the prior audit tied its recommended asset
adjustment to January 1, 1989, for purposes of this report we are specifying January 1, 1989, in
our objective and findings.

OBJECTIVE

Our objective was to determine whether WPS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation and




                                                 i
   •   updating the Medicare segment’s pension assets from January 1, 1989, to
       January 1, 2008.

SUMMARY OF FINDING

WPS properly implemented the prior audit recommendation; however, WPS did not always
comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating Medicare segment assets from January 1, 1989, to January 1, 2008.
WPS identified Medicare segment pension assets of $15,146,474; however, we determined that
the Medicare segment pension assets were $15,081,424 as of January 1, 2008. As a result, WPS
overstated the Medicare segment pension assets by $65,050 as of January 1, 2008.

RECOMMENDATION

We recommend that WPS decrease the Medicare segment pension assets as of January 1, 2008,
by $65,050 and recognize $15,081,424 as the Medicare segment’s pension assets.

AUDITEE COMMENTS

In written comments on our draft report, WPS said that the Medicare segment assets specified in
our draft report excluded some additional benefit payments, and added that, subsequent to the
issuance of our draft report, it had provided us with additional documentation to identify those
payments. With these requested revisions in mind, WPS agreed that the Medicare segment
assets as of January 1, 2008, should be $15,081,424.

WPS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing WPS’s comments, we revised Medicare segment assets based upon the
additional documentation regarding benefit payments that WPS had provided to us after we had
issued our draft report. We incorporated this adjustment into this final report and revised the
relevant findings and recommendation accordingly.

We maintain that our findings and recommendation, as modified, are valid.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Wisconsin Physicians Service Insurance Corporation and Medicare ..................... 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1
              Prior Pension Audit Report ..................................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 3
FINDINGS AND RECOMMENDATION.................................................................................. 4

          PRIOR AUDIT RECOMMENDATION ............................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Employee Contributions Understated ..................................................................... 5
              Benefit Payments Overstated .................................................................................. 5
              Net Transfers Understated ...................................................................................... 6
              Earnings Net Expenses Overstated ......................................................................... 6

          RECOMMENDATION ...................................................................................................... 6

          AUDITEE COMMENTS.................................................................................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................... 7

APPENDIXES

          A: WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION
             STATEMENT OF MARKET VALUE OF EMPLOYEES’ PENSION PLAN
             ASSETS FOR THE PERIOD JANUARY 1, 1989, TO JANUARY 1, 2008

          B: AUDITEE COMMENTS




                                                                     iii
                Glossary of Abbreviations and Acronyms

CAS   Cost Accounting Standards
CMS   Centers for Medicare & Medicaid Services
FAR   Federal Acquisition Regulation
MAC   Medicare administrative contractor
WAV   weighted average value
WPS   Wisconsin Physicians Service Insurance Corporation




                                    iv
                                              INTRODUCTION

BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). With the award to WPS of the CMS A/B Medicare administrative contractors
(MAC) 1 Jurisdiction 5 contract, WPS acquired Mutual of Omaha’s Medicare Part A business
segment in November 2007.

During the audit period, WPS had four defined benefit pension plans. The Employees’ Pension
Plan and the Managerial Pension Plan were ongoing pension plans that we reviewed in the prior
audit discussed below. On August 1, 1998, WPS established two additional defined benefit
pension plans: the Represented Employees’ Retirement Income Plan and the Managerial
Retirement Program for Michigan, Illinois, and Minnesota Employees of WPS. Effective
December 31, 2007, WPS merged the Represented Employees’ Retirement Income Plan and the
Managerial Retirement Program for Michigan, Illinois, and Minnesota Employees of WPS and
renamed the plan WPS Managerial Retirement Program for Selected Locations. This report will
address the pension assets for the Employees’ Pension Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
Medicare administrative contractor, whichever is applicable.

                                                         1
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Prior Pension Audit Report

We performed a prior pension audit at WPS (A-05-92-00048, issued October 1992), which
brought the Medicare segment’s actuarial value of assets to December 31, 1989. The prior audit
found that WPS understated the actuarial value of the Medicare segment’s pension assets by
$159,452 as of January 1, 1989, and recommended that WPS increase its actuarial value of
Medicare segment pension assets by $159,452 and, as a result, recognize $2,184,560 2 as the
Medicare segment pension assets as of January 1, 1989.

Although our prior audit recommended an asset adjustment as of January 1, 1989, that audit
reported assets as of December 31, 1989. Therefore, we used December 31, 1989, as the starting
date of this current audit period. However, because the prior audit tied its recommended asset
adjustment to January 1, 1989, for purposes of this report we are specifying January 1, 1989, in
our objective and findings.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether WPS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

    •    implementing the prior audit recommendation and

    •    updating the Medicare segment’s pension assets from January 1, 1989, to
         January 1, 2008.

Scope

We reviewed WPS’s implementation of the prior audit recommendation identification of its
Medicare segment, and its update of Medicare segment assets from December 31, 1989, to
January 1, 2008. For the reasons stated above, we did not audit assets between January 1, 1989
(the date associated with the prior audit’s recommendation), and December 31, 1989.

Achieving our objective did not require us to review WPS’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment and the update of the
segment’s assets to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.


2
 Although our prior report used the actuarial value of assets, our current audit used the market value of assets. The
corresponding market value of assets as of January 1, 1989, was $2,346,452 (as reflected in the initial entry of
Appendix A).

                                                          2
We performed fieldwork at WPS’s office in Madison, Wisconsin, during July 2009.

Methodology

To accomplish our objective, we did the following:

    •    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

    •    We reviewed the annual actuarial valuation reports prepared by WPS’s actuarial
         consulting firms, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Medicare segment assets.

    •    We obtained and reviewed the pension plan documents and Department of Labor/Internal
         Revenue Service (IRS) Forms 5500 used in calculating the Medicare segment assets.

    •    We interviewed WPS staff responsible for identifying the Medicare segment to determine
         whether the segment was properly identified in accordance with the Medicare contracts.

    •    We reviewed WPS’s accounting records to verify the segment identification and benefit
         payments made to the Medicare segment.

    •    We reviewed the prior pension audit performed at WPS (A-05-92-00048) to determine
         the beginning value of assets and the actuarial value of assets from January 1, 1989, to
         December, 31, 1989. 3

    •    We provided the CMS Office of the Actuary with the actuarial information necessary for
         it to calculate the Medicare segment pension assets (at market value) from
         December 31, 1989, to January 1, 2008.

    •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of WPS’s pension costs claimed for
Medicare reimbursement, to be issued in a subsequent report, and used the information obtained
during that audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



3
 We made this determination as a necessary preliminary step to the calculation of the market value of assets but, as
mentioned earlier, we did not audit the assets from January 1, 1989, to December 31, 1989.

                                                         3
                          FINDINGS AND RECOMMENDATION

WPS properly implemented the prior audit recommendation; however, WPS did not always
comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating Medicare segment assets from January 1, 1989, to January 1, 2008.
WPS identified Medicare segment pension assets of $15,146,474; however, we determined that
the Medicare segment pension assets were $ 15,081,424 as of January 1, 2008. As a result, WPS
overstated the Medicare segment pension assets by $65,050 as of January 1, 2008.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 1989, to
January 1, 2008, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.

                     Table 1: Summary of Audit Adjustments
                                           Per Audit     Per WPS Difference
  Prior Audit Recommendation                 $2,973,794 $2,973,794       $0

  Update of Medicare Segment Assets
    Employee Contributions                       1,020,121            1,017,055         3,066
    Benefit Payments                             2,621,437            2,720,872        99,435
    Net Transfers                                (104,335)             (35,487)      (68,848)
    Earnings Net Expenses                       13,813,281           13,911,984      (98,703)
  Under/(Over)statement of Medicare Pension Segment Assets                          ($65,050)

PRIOR AUDIT RECOMMENDATION

WPS properly implemented the prior audit recommendation (A-05-92-00048) which
recommended that WPS recognize $2,184,560 as the Medicare segment actuarial value of
pension assets as of January 1, 1989. The corresponding market value of assets for the Medicare
segment was $2,346,452 as of January 1, 1989.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

WPS did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating Medicare segment assets from January 1, 1989.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:




                                               4
               1. The majority of the salary dollars is allocated to the Medicare
                  agreement/contract; or,

               2. Less than a majority of the salary dollars are charged to the Medicare
                  agreement/contract, and these salary dollars represent 40% or more of
                  the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning on or before March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments in proportion to the beginning-of-year asset value. For
plan years beginning after March 30, 1995, the CAS requires investment income and expenses to
be allocated among segments based on the ratio of the segment’s weighted average value (WAV)
of assets to total company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Employee Contributions Understated

WPS understated employee contributions by $3,066 for the Medicare segment primarily because
of differences in the identification of the Medicare segment participants. Therefore, WPS
understated the Medicare segment pension assets by $3,066.

Benefit Payments Overstated

WPS overstated benefit payments by $99,435 because of differences in the identification of the
Medicare segment participants. In addition, WPS did not base the Medicare segment benefit
payment on the actual payments made to Medicare segment participants. As a result, the
Medicare segment pension assets were understated by $99,435.

A comparison of WPS’s and our calculations of benefit payments from the Medicare segment
appears in Table 2.




                                                 5
                 Table 2: Net Benefit Payments from the Medicare Segment
                             Per Audit        Per WPS        Difference
                  1990             $4,126           $4,126               $0
                  1991               4,126           4,126                0
                  1992             15,662           14,052          (1,610)
                  1993             20,903           20,706            (197)
                  1994             34,013           31,508          (2,505)
                  1995             79,757           59,778        (19,979)
                  1996             94,988           75,788        (19,200)
                  1997            227,199          190,727        (36,472)
                  1998            143,530          143,657              127
                  1999            151,408          139,405        (12,003)
                  2000            192,793          180,049        (12,744)
                  2001            219,800          217,416          (2,384)
                  2002            228,743          230,271            1,528
                  2003            199,341          241,102           41,761
                  2004            251,140          285,964           34,824
                  2005            246,732          306,721           59,989
                  2006            251,441          318,196           66,755
                  2007            255,735          257,280            1,545
                  Total        $2,621,437       $2,720,872         $99,435

Net Transfers Understated

WPS understated net transfers out of the Medicare segment by $68,848 primarily because of
differences in identification of the Medicare segment participants. This understatement of the
net transfer adjustment resulted in an overstatement of the Medicare segment assets by $68,848.

Earnings, Net Expenses Overstated

WPS overstated investment earnings, less administrative expenses, by $98,703 for the Medicare
segment because it used incorrect employee contribution, benefit payment, and net transfer
amounts (all discussed above) to develop the Medicare segment pension asset base. In our
audited update, we allocated earnings and expenses based on the applicable CAS requirements.

RECOMMENDATION

We recommend that WPS decrease the Medicare segment pension assets as of January 1, 2008,
by $65,050 and recognize $15,081,424 as the Medicare segment’s pension assets.

AUDITEE COMMENTS

In written comments on our draft report, WPS agreed with our findings after requesting that
revisions be made to the benefit payments that had been conveyed in our draft report.


                                               6
Specifically, WPS stated:

       The Medicare segment assets as of January 1, 2008 that were reported in the draft
       report excluded some additional Medicare segment benefit payments. Subsequent
       to the issuance of the draft report, WPS provided the OIG [Office of Inspector
       General] with additional documentation in order to identify the Medicare segment
       benefit payments. WPS agrees that after revision of the benefit payments the
       Medicare segment pension assets as of January 1, 2008 should be $15,081,424.

WPS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing WPS’s comments, we revised Medicare segment assets based upon the
additional documentation regarding benefit payments that WPS had provided to us after we had
issued our draft report. We incorporated this adjustment into this final report and revised the
relevant findings and recommendation accordingly.

We maintain that our findings and recommendation, as modified, are valid.




                                               7
APPENDIXES
                                                                                      APPENDIX A
                                                                                            Page 1 of4
            APPENDIX A: WISCONSIN PHYSICIANS SERVICE INSllRANCE CORPORATION 

             STATEMENT OF MARKET VALUE OF EMPLOYEES' PENSION PLAN ASSETS 

                     FOR THE PERIOD JANUARY I, 1989, TO JANUARY 1,2008 


             Description              Total Company        "Other" Segment     Medicare Segment

Assets January 1, 1989                     $9,138,278 .          $6,791,826          $2,346,452

Contributions                                       0                     0                   0
Employee Contributions                        236,863               186,812              50,051
Earnings                                    2,264,335             1,682,918             581,417
Benefit Payments                             (125,574)             (121,448)             (4,126)
Expens~s.                                           0                     0                   0

Assets December 31, 1989                  $11,513,902 ,          $8,540,108          $2,973,794

Contributions                                       0,                    0                   0
Employee Contributions                        260,978 ,             198,779              62,199
Earnings                                      254,881               189,051              65,830
Benefit Payments                             (121,163)             (117,037)             (4,126)
Expenses                                       (7?795)               (5,782)             (2,013)

Assets January 1, 1991                    $11,900,803            $8,805,119          $3,095,684

Contributions                                       0                     0                   0
Employee Contributions                        314,889               245,098              69,791
Earnings                                    3,637,574             2,691,354             946,220
Bent:fit Payments                            (143,853)             (139,727)             (4,126)
Expenses                                              o·                  0                   0

Assets January 1, 1992                    $15,709,413           $11,601,844          $4,107,569

Contributions                                       0                     0                   0
Employee Contributions                        268,910               221,115              47,795
Earnings                                    1,780,667             1,315,073             465,594
Benefit Payments                             (205,427)             (189,765)            (15,662)
Expt:nse;:s                                         0                     0                   0

Assets January 1, 1993                    $17,553,563           $12,948,267          $4,605,296

Contributions                                       0                     0                   0
Employee Contributions                        299,846               240,885              58,961
Earnings                                    2,759,081             2,035,217             723,864
Bent:fit Payments                            (235,778)             (214,875)            (20,903)
Expenses                                            0                     0                   0

Assets January 1, 1994                    $20,376,712           $15,009,494          $5,367,218

Contributions                                       0                     0                   0
Employee Contributions                        305,897               253,565              52,332
Earnings                                     (660,547)             (486,559)           (173,988)
Benefit Payments                             (329,787)             (295,774)            (34,013)
?xP.e;:nse.s.                                       0                     0                   0

Assets January 1, 1995                    $19,692,275           $14,480,726          $5,211,549
                                                                                             APPENDIX A
                                                                                                   Page 2 of4


                           Description   Total Company       "Other" Segment     Medicare Segment
......... 

              A~~~ts}anuary   1, 1995        $19,692,275          $14,480,726                $5,211,549

              Contri butions                             0                  0                         0
              Employee Contributions             369,0~7,             309,888                    59,179
              Earnings                         5,950,296 '          4,375,554                 1,574,742
              Benefit Payments                  (496,891)            (417,134)                  (79,757)
              Expenses                          (124,604),            (91,628)                  (32,976)

              Assets January I, 1996         $25,390,143          $18,657,406                $6,732,737

              Contributions                            0,                   0                         0
              Employee Contributions             374,792              320,764                    54,028
 .... 	
              Earnings                         4,029,188            2,9~I.?~04        '".=
                                                                                              1,067,284
              Benefit Payments                  (475,130)            (380,142)                 "(94,988)
              Expenses                          (157,611)            (115,862)                  (41,749)

              Assets January I, 1997         $29,161,382          $21,444,070                $7,717,312

              Contributions                            0                    0                         0
              Employee Contributions             338,616              287,609                    51,007
              E~ill.gs                         6,892,265            5,060!983                1,831,?~?
              Benefit Payments                (1,234,300)          (1,007,101)                 (227,199)
              Expenses                                 0                    0                         0

              Assets January I, 1998         $35,157,963 .        $25,785,561                $9,372,402

              Contributions                            0                    0                         0
              Empl()yee Contributions            318,814              257,709                    61,105
              Earnings                         7,012,373            5,138,184                 1,874,189
              Benefit Payments                  (808,491)            (664,961)                 (143,530)
              Expenses                          (218,931)            (160,418)                  (58,513)

              Assets January 1, 1999         $41,461,728          $30,356,075          $11,105,653

              Contributions                            0                    0                         0
              Employee Contributions             298,970              231,329                    67,641
              Earnings                         7?706,562            5~6}5!~79                 2,071,083
              Benefit Payments                  (885,209)            (733,801)                 (151,408)
              Expenses                          (243,636)            (178,161)                  (65,475)

              Assets January 1,2000          $48,338,415          $35,310,921         $13,027,494

              Contributions                            0                    0                         0
              Employee Contributions             271,834              217,981                    53,853
              Earnings                          (594,398)            (433,943)                 (160,455)
              Benefit Payments                  (944,097)            (751,304)                 (192,793)
              Expenses                          (304,093)            (222,004)                  (82,089)

              Assets January 1, 2001         $46,767,661          $34,121,651         $12,646,010
                                                                                       APPENDIX A
                                                                                             Page 3 of4

                Description          Total Company         "Other" Segment      Medicare Segment

Assets January 1,2001                    $46,767,661            $34,121,651          $12,646,010

Contributions                                      0                      0                     0
Employee Contributions                       218,606                179,541                39,065
Earnings                                  (4,348,901)            (3,171,094)           (1,177,807)
~t:nefit PaY'!1~:Ilts                     (1,033,7~1)              (813,931):            (219,800)
Expenses                                    (283,063)              (206,401)'             (76,662)

Assets January 1,2002                    $41,320,572            $30,109,766          $11,210,806

Contributions                                      0,                     0                    0
Employee Contributions                       319,749                265,708               54,041
Earnings                                  (2,932,025)            (2,135,257)            (796,768)
Benefit Payments                          (1,094,514)              (865?771)            (228,743)
Expenses                                    (319,322)              (232,547)             (86,775)

Assets January 1,2003                    $37,294,460            $27,141,899          $10,152,561

Contributions                                      0                      0                     0
Employee Contributions                       322,786                267,669                55,117
Earnings                                   5,872,865              4,267,708             1,605,157
Benefit. Payments                         (1,148,041 )             (948?700)             (199,341)
Expenses                                    (281,346)              (204,449)              (76,897)

Assets January 1, 2004                   $42,060,724            $30,524,127          $11,536,597

Contributions                                         0                   0                     0
Employee Contributions                        360,442               299,499               60,943
Earnings                                   4,520,567              3,277,723            1,242,844
Bt:nefit PiiY'!1el)ts                     (1 ,250,,1 1~)           (998,~7~)            (251,14.0)
Expenses                                     (308,990),            (224,039)             (84,951 )

Assets January 1,2005                    $45,382,624            $32,878,331          $12,504,293

Contributions                 §!.          1,845,000 .            1,845,000                    0
Employee Contributions                       397,975                345,640               52,335
Earnings                                   3,273,379              2,382,564              890,815
Benefit Payments                          (1,335,864)            (1,089,132)            (246,732)
Expenses                                    (322,849)              (234,989)             (87,860)
Transfers                     1!..                 0                 93,735              (93,735)

Assets January 1,2006                    $49,240,265            $36,221,149          $13,019,116

Contributions                              2,165,000              2,165,000                    0
Employee Contributions                       445,477                 393,992              51,485
Earnings                                   5,662,834              4,,188,941           1,473,893
Benefit Payments                          (1,593,242)            (1,341,801)            (251,441)
Expenses                                    (363,046)'             (268,554)             (94,492)
Transfers                                          0                344,895             (344,895)

Assets January 1,2007                    $55,557,288            $41,703,622          $13,853,666
                                                                                                                            APPENDIX A
                                                                                                                                  Page 4 of4

                    Description                             Total Company             "Other" Segment               Medicare Segment

      Assets January 1,2007                                      $55,557,288                   $41,703,622               $ 13,853,666

      Contributions                                                 2,700,000                     2,700,000                        ··0
      Employee Contributions                                          470,550                       401,306                    69,244
      Earnings                                                      4,872,348                     3,687,415                 1,184,933
      Benefit PlIYITlents                                      ...... J.ll~~5,992)·          ........ (1!~90,257)            (255,735)
      Expenses                                                           (431,664)                      (326,685)            (104,979)
      Transfers                                                                 0                       (334,295)             334,295

      Assets January I, 2008                                     $61,522,530                   $46,441, I 06             $15,081,424
      Per WPS                                    81              $61,522,530                   $46,376,056               $15,146,474
      Asset Variance                             2L                       $0                       $65,050                  ($65,050

~
FOOTNOTES

 .!L 	 We detennined the Medicare segment pension assets from January   I, 1989, to December 31, 1989, based upon the prior
      pension audit of Wisconsin Physicians Service Insurance Corporation (WPS) (A-05-92-00048). The prior pension audit used
      actuarial value of assets in the report. We detennined that WPS implemented the recommendation; therefore, we used the
      corresponding market value of assets. The amounts shown for the "Other" segment represent the difference between the Total
      Company and the Medicare segments. All pension assets in this appendix are shown at market value.

 'ld 	We obtained Total Company employee contributions from the actuarial valuation reports.         The Medicare segment employee
      contributions were actual contributions made by the Medicare segment employees.

 ;J!.. 	 We obtained investment earnings from actuarial valuation reports. We allocated investment earnings based on the market
      value of Medicare assets at the beginning of the plan year after adjustments for prepayment credits and participant transfers.
      For years starting with 1996, we allocated investment earnings based on the ratio of the segment's weighted average value
      (WA V) of assets to total company WA V of assets as required by the Cost Accounting Standards (CAS).

 11: 	 We based the Medicare segment's benefit payments on actual payments to Medicare retirees. We obtained the benefit
      payments from documents provided by WPS.

 2L   We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 fli. 	 We obtained Total Company contribution amounts from the actuarial valuation reports and Department of LaborlIntemal
      Revenue Service Fonns 5500. We allocated Total Company contributions to the Medicare segment based on the ratio of the
      Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the funding targets
      were treated as prepayment credits and accounted for in the "Other" segment until needed to fund pension costs in the future.

 7!. 	 We identified participant transfers between segments starting in calendar year 2005 by comparing valuation data files provided
      by WPS. Asset transfers were equal to the actuarial liability detennined under the accrued benefit cost method in accordance
      with the CAS. Furthennore, the CAS requires an adjustment to be made for transfers only if the transfers materially affect the
      segment's ratio of pension plan assets to actuarial accrued liabilities. WPS detennined that prior to 2005, participant transfers
      did not materially affect the segment's ratio; therefore, WPS did not perfonn transfer adjustments. We replicated WPS's
      methodology.                                       .

 ~    We
       	 obtained total asset amounts as of January 1,2008, from the actuarial valuation report prepared by WPS's actuarial
      consulting finns.

 2L 	 The asset variance represents the difference between our calculation of Medicare segment pension assets and WPS's
      calculation of the Medicare segment pension assets.
                         APPENDIX B: AUDITEE COMMENTS 




CAdS/                                                                                           Medicare

  October 5, 2010


  Mr. Patrick J. Cogley
  Regional Inspector General for Audit Services
  HHS, Office of Audit Services
  601 East lzth Street, Room 429
  Kansas City, MO 64106


  Dear Mr. Cogley:

  This letter is in response to Rep011 Number A-07 -10-00335, the Draft Audit Report Review of
  Pension Segmentation Requirements for the Employees' Pension Plan at Wisconsin Physicians
  Service Insurance Corporation for the period ofJanuary 1, 1989, to January 1, 2008.

  The Medicare segment assets as of Jannary 1, 2008 that were reported in the draft report
  excluded some additional Medicare segment benefit payments. Subsequent to the issuance of the
  draft report, WPS provided the OIG with additional documentation in order to identify the
  Medicare segment benefit payments. WPS agrees that after the revision of the benefit payments
  the Medicare segment pension assets as of January 1,2008 should be $15,081,424.

  Thank you for the opportunity to comment, please contact me at (608) 301-2639 or e-mail me at
  Jared.Adair@wpsic.com if you have any questions.

  Sincerely,



~ Jar 'dA. Adair
                    a,~
  S   'or Vice President, Medicare




               WIsconsin Physicians Service Insurance Corporation serving as a eMS conlrac\or
               P.O. Box 1787 • Madison, WI 53701 • Phone 608-221-4711
